No. 20A151

In the Supreme Court of the United States
RITESH TANDON, ET AL.,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit

CERTIFICATE OF SERVICE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus
on the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for (1) Leave to File the Brief
and (2) to Do So without Ten Days’ Notice, certify that on this 7th day of April, 2021,
I caused a copy of the motion and amicus brief to be served via next day service and
electronically on the following:
Jason M. Bussey
Deputy County Counsel
Office of the County Counsel
70 West Hedding St.
East Wing, Ninth Fl.
San Jose, CA 95110-1770
(408) 299-5900
Jason.bussey@cco.sccgov.org

Ryan J. Walsh
Counsel of Record
Eimer Stahl LLP
10 E. Doty St.
Suite 800
Madison, WI 53703
(608) 442-5798
rwalsh@eimerstahl.com

Counsel for County Respondents

Counsel for Applicants

Lara Haddad
Deputy Attorney General
300 S. Spring St.
Suite 1702
Los Angeles, CA 90013
(213) 269-6250
Lara.Haddad@doj.ca.gov
Counsel for State Respondents
I further certify that all parties required to be served have been served.

Eric Rassbach

